<html>
<title> - GREEN RECOVERY PLANS FOR THE COVID-19 CRISIS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
              GREEN RECOVERY PLANS FOR THE COVID-19 CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON EUROPE, EURASIA, ENERGY, AND THE ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2020

                               __________

                           Serial No. 116-134

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         



       Available:  http://www.foreignaffairs.house.gov/, http://docs.house.gov, 
                          or http://www.govinfo.gov
                          
                          
                          
                             ______                       


              U.S. GOVERNMENT PUBLISHING OFFICE 
41-969 PDF             WASHINGTON : 2021                           
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas
                                     
                                     

                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

      Subcommittee on Europe, Eurasia, Energy, and The Environment

                WILLIAM KEATING, Massachusetts, Chairman

ABIGAIL SPANBERGER, Virginia         ADAM KINZINGER, Illinois, Ranking 
GREGORY MEEKS, New York                  Member
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
THEODORE DEUTCH, Florida             ANN WAGNER, Missouri
DAVID CICILLINE, Rhode Island        JIM SENSENBRENNER, Wisconsin
JOAQUIN CASTRO, Texas                FRANCIS ROONEY, Florida
DINA TITUS, Nevada                   BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania             GREG PENCE, Indiana
DAVID TRONE, Maryland                RON WRIGHT, Texas
JIM COSTA, California                MIKE GUEST, Mississippi
VICENTE GONZALEZ, Texas              TIM BURCHETT, Tennessee

                    Gabrielle Gould, Staff Director
                    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Kyte, Rachel, CMG, Dean, The Fletcher School of Law and 
  Diplomacy, Tufts University (Former Special Representative of 
  the U.N. Secretary-General and CEO of Sustainable Energy for 
  All, and Former World Bank Group Vice President and Special 
  Envoy for Climate Change)......................................     8
Morton, John E., Partner, Pollination, Senior Fellow, Atlantic 
  Council (Former White House Senior Director for Energy and 
  Climate Change at the National Security Council)...............    14
Nahm, Dr. Jonas, Assistant Professor of Energy, Resources, and 
  Environment, School of Advanced International Studies, Johns 
  Hopkins University.............................................    19
Rohac, Dr. Dalibor, Resident Scholar, American Enterprise 
  Institute......................................................    30

                                APPENDIX

Hearing Notice...................................................    55
Hearing Minutes..................................................    56
Hearing Attendance...............................................    57


              GREEN RECOVERY PLANS FOR THE COVID-19 CRISIS

                     Wednesday, September 23, 2020

                           House of Representatives
  Subcommittee on Europe, Eurasia, Energy, and the 
                                        Environment
                       Committee on Foreign Affairs
                                                     Washington, DC

    The subcommittee met, pursuant to notice, at 10:04 a.m., 
via Webex, Hon. William Keating (chairman of the subcommittee) 
presiding.
    Mr. Keating. The House Foreign Affairs Subcommittee will 
come to order without objection. The chair is authorized to 
declare a recess of the committee at any point and all members 
will have 5 days to submit statements, extraneous material, and 
questions for the record, subject to the length limitations and 
the rules.
    To insert something into the record, please have your staff 
email the previously mentioned address and contact full 
committee staff.
    Please keep your video function on at all times, even when 
you are not recognized by the chair. Members are responsible 
for muting and unmuting themselves and please remember to mute 
yourself after you have finished speaking.
    Consistent with House Resolution 965 and the accompanying 
regulations, staff will only mute members and witnesses as 
appropriate when they are not under recognition to eliminate 
background noise.
    I see that we have a quorum. Thank you all for being here, 
and now I will recognize myself for opening remarks,
    Pursuant to notice, we are holding a hearing today entitled 
``Green Recovery Plans for the COVID-19 Crisis.''
    One year ago, we held a hearing to coincide with the U.N.'s 
Climate Action Summit, where a panel of youth climate activists 
testified before this subcommittee about the urgency of 
addressing the climate crisis.
    Today, 1 year later, that urgency has only grown. This 
year's climate week is a joint effort by the Climate Group 
Alliance with the United Nations and the city of New York to 
bring together a broad range of stakeholders to address how we 
rebuild after this global COVID-19 pandemic.
    The safety measures we had to put into place to protect 
public health have been crippling economically, with millions 
unemployed and entire sectors of the economy decimated. Despite 
these measures, the virus itself has taken over 200,000 
American lives and nearly 1 million deaths globally.
    As we all should have come to realize at this point, we 
cannot simply wish the virus away. We must wear masks and 
social distance, and by doing so we will actually diminish the 
effects of this so we can get back to family, to work, and to 
everything and everyone that we miss.
    Similarly, we cannot wish away the economic realities 
resulting from this virus. Americans should not have to choose 
between their health and their economic security.
    In the near term, we must support the communities hardest 
hit by this temporary crisis, and for the longer term we must 
begin planning a more sustainable and sensible economic 
recovery, one that harnesses American ingenuity, one that will 
leave us more economically secure and advance our environmental 
and public health.
    As we speak, unprecedented wildfires, storms, floods are 
ravaging our country, destroying homes, lives, and livelihoods. 
How much death and destruction from a changing climate will we 
watch before we act?
    The choice before us is obvious. We could continue throwing 
money at short-term fixes, Band-Aids that throw away money on 
these solutions that cannot possibly solve the problems of our 
21st century communities.
    Or we could invest strategically in technologies, the ideas 
and the initiatives that buoy our economy and develop jobs and 
industries to stabilize the financial crisis sparked by this 
pandemic and create safer, healthier, more sustainable 
communities for decades and generations to come.
    Governments around the world are facing the same choice. 
However, they are not hesitating to develop economic relief 
plans that address not only the pain from the pandemic but also 
the inevitable pain we will continue to experience from climate 
change.
    They are using economic recovery or economic stimulus 
funding as an opportunity to incentivize cleaner technologies 
that promote jobs and clean and renewable energy that will be 
cheaper, safer, more efficient, and less vulnerable to 
geopolitical disruptions.
    For example, the EU has allocated 20 percent of its 2020 
stimulus spending toward green priorities. I see the potential 
for these opportunities in my own district where we are 
creating high-paying jobs through investments in offshore wind, 
bringing together universities and community colleges, American 
businesses and international partners.
    Our European counterparts have seen an incredible range of 
opportunities from jobs and economic growth as they tackle the 
existential threat of climate change.
    We have got work to do to catch up to them. I have 
legislation to support these kinds of investments to ensure 
that local work force is prepared for the opportunities in the 
offshore wind industry.
    The House will also be voting this week on a package of 
meaningful reforms to move us close to realizing our clean 
energy future. But there is still so much that we can and must 
do. The private sector understands this. Rarely does a day go 
by without a company announcing steps toward zero emission 
goals.
    That is why it is so disheartening that this is still a 
debate here in the U.S. and that we are not all working 
furiously together, driving forcefully toward obvious and clear 
solutions like countless businesses across the private sector 
and like so many of our foreign partners are doing right now.
    Americans see the reality before them that fled furious 
infernos with nothing but the clothes on their backs as their 
homes and livelihood burns in the rear view mirror.
    Others have diligently boarded up homes and businesses in 
nervous anticipation of the waters brought by rising seas and 
crushing storms, fully aware of the inevitability of the 
wreckage to come.
    Americans of all ages and all backgrounds see what is 
coming as do the people around the world. It is a false choice 
between our economy and the healthcare of our people and our 
planet.
    We can and must act to protect all of these things. So I am 
eager for the conversation today with our panel of experts and, 
hopefully, we can begin to shape a responsible and sustainable 
economic response to this pandemic.
    I would like to thank our witnesses for joining us today 
and I now turn to the ranking member for his opening remarks, 
Representative Kinzinger.
    Mr. Kinzinger. Well, thank you, Mr. Chairman, for calling 
the hearing, and to the panel, thank you for being with us 
today in this new unique way of doing it.
    While the coronavirus pandemic has caused incalculable 
human suffering across the U.S. and around the world, we now do 
have the opportunity to rebuild our communities, economies, and 
our environment.
    It is still incredible to me to see photos right after 
lockdowns took effect where people in India could see the 
Himalayas for the first time in their lives because the smog 
from factories had cleared, or in Italy where the once-polluted 
canals----
    [Audio break.]
    Mr. Keating. Representative Kinzinger, I think you have 
gone mute. If you could just suspend for a second and see if we 
can check this technologically.
    We are pausing for one moment, Representative, just to make 
sure. I just want an okay from everyone that the technology has 
created--Representative Kinzinger can start from his opening 
remarks if he chooses with the full time component.
    [Brief Recess.]
    Mr. Keating. What I will do, I am going to go through the 
witness introductions next and then we will try Representative 
Kinzinger, and if the technology is not corrected we are going 
to--we will go and proceed in another order.
    So let me take this pause to introduce our witnesses and I 
would like to thank them for joining us.
    Dean Kyte is the dean of the Fletcher School of Law and 
Diplomacy at Tufts University. She previously served as special 
representative of the United Nations Secretary General and 
chief executive officer of sustainable energy for all where she 
led efforts to promote and finance clean energy to further the 
U.N. sustainable development goals. She was also vice president 
and special envoy for climate change at the World Bank Group. 
Thank you for joining us.
    Mr. John E. Morton is partner at Pollination and a senior 
fellow at the Atlantic Council. He currently serves as a senior 
fellow at the European Climate Foundation. He previously served 
as White House senior director for energy and climate change at 
the National Security Council during the Obama Administration. 
Thank you for being here.
    Dr. Jonas Nahm is an assistant professor of energy, 
resources, and environment at the School of Advanced 
International Studies at Johns Hopkins University. His research 
focuses on the intersection of economic and industrial policy, 
energy policy, and environmental politics.
    Dr. Dalibor Rohac is a resident scholar at the American 
Enterprise Institute where he focuses on European political and 
economic trends. He is currently a visiting junior fellow at 
the Max Beloff Center of Study of Liberty and at the University 
of Buckingham in the U.K., and a fellow at the Institute of 
Economic Affairs in London.
    Now, let us see if we can move back to Ranking Member 
Kinzinger's opening remarks.
    [Pause.]
    Mr. Keating. All right. If we have a delay then I will 
recognize Representative Wilson, if you are prepared.
    Let us go back to Representative Kinzinger. I believe we 
have him back.
    Representative Kinzinger.
    Mr. Kinzinger. Yes, you do.
    Mr. Keating. You can start from the beginning with your 
opening remarks.
    Mr. Kinzinger. Okay. All right. Sorry. Let me know if I----
    Mr. Keating. Thank you for joining us again.
    Mr. Kinzinger. Yes, me too. Let me know if I cut out again, 
and then you can move on and we will do it after.
    So, Mr. Chairman, thank you. To the panel, thank you for 
being here. Very much appreciated.
    This pandemic has caused a lot of human suffering around 
the U.S. and the world, and we have the opportunity now to 
rebuild our communities, our economy, and our environment.
    It is still incredible to see the photos after the lookdown 
took effect where people in India could see the Himalayas for 
the first time in their life and the smog from the factories 
had cleared, or in Italy where the once-polluted canals of 
Venice became crystal clear.
    In China, we saw air pollution drop almost 11 percent 
because of COVID restrictions, and it is a shame to see that 
these numbers have risen back to pre-COVID levels but there is 
a silver lining.
    Through American leadership and innovation we can reverse 
the damage that we have done and ensure a clean environment for 
the next generation. But before we even discuss the important 
role that green technology plays in our world, the U.S. and our 
European allies must hold the world's top polluter, China, 
accountable.
    We must not forget that for every ton of carbon dioxide 
reduced by the U.S., China adds nearly four times as much. So 
while the U.S. works to clean the air we breathe, China 
pollutes it.
    Additionally, the U.S. Government, in coordination with the 
private sector, needs to ensure that American innovation can 
flourish in a post-COVID environment. If we begin slapping 
unnecessary regulations on the energy sector, we are only going 
to suffocate the entrepreneurial spirit in the United States.
    And last but not least, we must stress the importance of 
energy diversification. Not only will energy diversity 
stimulate weakened economies but it will help to provide the 
energy security to nations around the world that we need.
    Take my district, Illinois' 16th congressional District. It 
is home to four nuclear power-generating stations which serves 
as the most abundant and clean energy source on the planet as 
well as hundreds of wind turbines, solar power, and geothermal 
sources.
    This strategy has been official as it supports good-paying 
jobs at home while also ensuring we are good stewards of our 
environment.
    That is why I applaud Poland's decision to not only invest 
in nuclear power for their country but also to increase their 
LNG trade with the United States, while supporting intra-EU 
energy transit.
    It is these kinds of decisions that will not only have a 
long-term benefit on protecting our climate but will also push 
back on Russia's use of energy as a political weapon.
    If Western society wants to tackle climate change, we must 
hold polluters accountable and invest in long-term solutions to 
our energy dependence, and I believe that nuclear must be part 
of that strategy.
    Unfortunately, we have seen some of our closest allies take 
their nuclear reactors offline at a time when we need low-
carbon energy sources.
    Germany, for example, shut down nearly half of their 
nuclear power stations overnight. Additionally, they scheduled 
their remaining reactors to close over a decade before 
shuttering their coal plants, which still generate over a third 
of their energy.
    Now, we all know--we all know that for Germany to achieve 
to achieve their green energy goals they decided to build a 
pipeline directly from Russia into Germany, and we all 
discussed the reasons as to why this is a terrible idea. I am 
still amazed that the German government is willing to work with 
the Kremlin after they interfered in Western elections and 
invaded our allies in Ukraine and Georgia, shot down a 
commercial airliner, killing over 200 EU citizens, staged a 
cyberattack on the German parliament, murdered a Russian 
opponent in Berlin, and bolstered the Assad regime's genocide 
in Syria.
    I commend Germany for reconsidering the Nord Stream 2 
pipeline after Russia's assassination attempt recently. But we 
cannot rely on them to put the final nail in the coffin. 
Congress must act and ensure that as long as Vladimir Putin and 
the Russian Federation continue to threaten the Trans-Atlantic 
partnership, Nord Stream 2 will never play a role in Europe's 
green recovery plan.
    Thank you again, Mr. Chairman. Sorry for the technical 
difficulties, and I will yield back the balance of my time.
    Mr. Keating. I thank the ranking member, and I want to 
recognize the witnesses for 5 minutes. Without objection, your 
prepared written statements will be made part of the record.
    Dean Kyte, you are now recognized for your opening 
statement.

STATEMENT OF RACHEL KYTE, CMG, DEAN, THE FLETCHER SCHOOL OF LAW 
AND DIPLOMACY, TUFTS UNIVERSITY (FORMER SPECIAL REPRESENTATIVE 
OF THE U.N. SECRETARY-GENERAL AND CEO OF SUSTAINABLE ENERGY FOR 
  ALL, AND FORMER WORLD BANK GROUP VICE PRESIDENT AND SPECIAL 
                   ENVOY FOR CLIMATE CHANGE)

    Ms. Kyte. Mr. Chairman, Ranking Minority Member, members of 
the committee.
    Thank you for the opportunity to testify this morning on 
the critical issue of how we can build back better from the 
global economic crisis brought about by COVID.
    Let me just update the context. More than 90 countries are 
seeking support from the International Monetary Fund. More than 
180 countries have stalled or shrinking growth, according to 
the World Bank, which now warns that COVID-19 could push 
countries from recession into depression, and that the U.N. 
General Assembly going on in New York this week, or virtually 
around the world, reports on progress toward the sustainable 
development goals highlight that 100 million people are at risk 
of being pushed back into poverty, and that by some measures of 
well being the past 25 weeks have wiped out 25 years of 
progress.
    So the pandemic presents us with an extraordinary 
challenge, but also an extraordinary once in a generation 
opportunity.
    The IMF currently projects, and we can assume that these 
will be updated in the next few weeks, that the extent of the 
growth challenge is that global growth retreats by 
approximately 5 percent in 2020.
    So then how do we organize immediate relief and plan for 
recovery, and can that recovery be one that puts into the dual 
economies and the global economy on a more inclusive pathway 
and a cleaner pathway?
    Well, at least more than 200 economists writing earlier 
this summer think so, and they concluded in work brought 
together by the University of Oxford that green stimulus 
measures can have the most significant impact on the economy, 
cutting emissions.
    So they highlighted investing in building efficiency 
retrofits, education and training to address immediate 
unemployment from COVID-19, clean energy physical 
infrastructure, storage in renewable energy assets, for 
example, clean energy R&D, and natural capital for ecosystem 
resilience and regeneration.
    OECD estimates that more than 30 members countries and key 
partners have now announced green stimulus elements, mainly in 
energy and transport, and lessons from the last financial 
crisis show that if well designed they can achieve the twin 
objective of providing income and jobs while improving well 
being and resilience.
    The International Energy Agency, working with the IMF, 
published a plan for sustainable recovery focused on the energy 
sector. Here they think there can be growth stimulated of 1.1 
percent a year and also that we could create 9 million jobs a 
year and reduce energy-related emissions by 4.5 billion tons.
    They were explicit that there was a sweet spot where short-
term job creation, growth in the short to medium term, and 
medium-to long-term emissions can be achieved.
    That sweet spot is refurbishing buildings, improving energy 
efficiency, and improving the electricity sector, in 
particular, upgrading grids with deep employment opportunities, 
and renewable energy, essentially focusing recovery efforts 
there.
    Energy efficiency can be important, too, including in 
manufacturing, food, and textile industries. So there is a 
sweet spot. The short-, medium-, and long-term objectives can 
be achieved by a green recovery.
    Now, many countries are introducing green elements, some of 
them very far reaching, using the opportunity for research, for 
example, Chile, looking at a green hydrogen economy.
    But it is the European Union that has attracted the most 
attention, heading forward with the Green Deal in December last 
year and then in July this year, as the chairman has already 
indicated, a package of $572 billion, a large part of the 
recovery, to be green, focusing on electric vehicles, renewable 
energy in agriculture as well as other sectors.
    What is interesting is that that then is being joined by 
the announcement by the EU in the recent days that they will 
ratchet up their climate ambition, targeting a 55 percent 
reduction in emissions over 1990 levels by 2030.
    So a number of jurisdictions around the world, middling and 
advanced economies, are using this opportunity to double down. 
And so I would like to make three points in conclusion.
    First, the nature of this crisis means that it is a once in 
a generation opportunity to pivot and ensure economic future 
protects people and the planet.
    Second, there are sweet spots of actions spurring immediate 
job growth, boosting incomes, and achieving emissions.
    And then third, the private sector investors are 
increasingly moving to zero net emissions trajectories 
themselves and demanding stronger government signaling so that 
they can go further faster.
    Government action is essential to ensure that we do not 
leave anyone behind. That will be important for developing 
countries as well. The virus has shown the limits of our 
resilience.
    We need to be resilient to the impact of climate change and 
not investing in that now as part of this extraordinary 
recovery will be detrimental in the short and long term.
    Thank you.
    [The prepared statement of Ms. Kyte follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

   
    Mr. Keating. Well, thank you, Dean Kyte.
    Now I will call upon Mr. Morton for your opening statement.

   STATEMENT OF JOHN E. MORTON, PARTNER, POLLINATION, SENIOR 
 FELLOW, ATLANTIC COUNCIL (FORMER WHITE HOUSE SENIOR DIRECTOR 
FOR ENERGY AND CLIMATE CHANGE AT THE NATIONAL SECURITY COUNCIL)

    Mr. Morton. Mr. Chairman, Ranking Member Kinzinger, and 
members of the committee, it is a real pleasure to testify 
before you here today.
    My name is John Morton. I am a partner at Pollination, a 
global advisory and investment firm and a senior fellow at the 
Atlantic Council.
    The transition to a global low-carbon economy represents 
the most predictable and consequential economic transformation 
in human history.
    Over the coming decades tens of millions of jobs and 
trillions of dollars of wealth will be created as we transition 
to a cleaner, more efficient, and more resilient economy.
    The question is not whether this transition will occur but, 
rather, how fast, who will lead, and who will be left behind. 
These are questions of tremendous economic consequence for 
corporations, for industries, and for nations.
    The COVID crisis, as has been said represents an 
opportunity to align public investment with this ongoing global 
transitioning, turbo charging the technologies and industries 
of today and tomorrow.
    Carbon is a dangerous pollutant quickly warming our planet 
and it is emitted at virtually zero cost. In economic terms, 
that makes carbon the ultimate unpriced externality. But that 
is beginning to change, and fairly rapidly.
    The World Bank reports that there are now more than 60 
carbon pricing initiatives at the national or subnational level 
in place or under development.
    Together, jurisdictions covered under these programs 
account for nearly one quarter of global GHG emissions. In 
short, carbon is fast becoming a financial liability. Financial 
markets know this. In January, BlackRock CEO Larry Fink wrote, 
quote, ``We are on the edge of a fundamental reshaping of 
finance. Investors are recognizing that climate risk is 
investment risk.''
    The Commodities Futures Trading Commission concurred 2 
weeks ago, stating that, quote, ``Climate change poses a major 
risk to the stability of the U.S. financial system and to its 
ability to sustain the American economy.''
    Investments today and more climate resilient solutions are 
prudent not only to minimize future costs but because they will 
generate outsized returns.
    Recent analysis from the International Renewable Energy 
Agency shows that investments that expedite moving to a low-
carbon economy would increase global GDP by nearly $100 
trillion by 2050.
    As has been said, countries around the world recognize this 
and are responding accordingly in their recovery plans. France 
has earmarked more than 30 percent of its most recent recovery 
package for climate action.
    South Korea has prepared an ambitious Green New Deal with a 
5-year focus on clean energy, electric and hydrogen vehicles, 
and energy efficiency.
    But the best example of leadership can be found in European 
where the European Commission has announced a nearly $900 
billion next-generation EU program with nearly 40 percent of 
these funds to be allocated directly to the objectives of the 
European Green New Deal.
    Highlights include increasing emissions reductions targets, 
notably, as Dean Kyte mentioned, a goal of becoming the first 
climate neutral continent by 2050 and, notably, developing a 
WTO-compatible carbon border adjustment mechanism.
    Let us pause just for a moment on that last point. The 
moment is not too far off where carbon-intensive products will 
be explicitly taxed or tariffed in order to enter the European 
Union.
    Just because we may choose not to prioritize carbon 
reductions does not mean that others will not, and increasingly 
in ways that will be painful for our economy.
    So what should the U.S. do? We must use this moment of 
crisis to propel the U.S. back into an economic leadership 
position by supporting the jobs and industries of the future. 
And when the climate challenge is looked at through the lens of 
future jobs and growth, the following investment priorities 
become compelling economic opportunities.
    Continued rapid deployment of clean and renewable energy, 
electrification of the transportation sector and build-out of a 
national charging infrastructure, development of next-
generation energy storage solutions and a domestic clean 
hydrogen industry, improvements in building in energy 
efficiency, and importantly, investments in nature and nature-
based solutions including landscape restoration, regenerative 
agriculture, and sustainable forestry.
    Wayne Gretzky, the NHL hockey great, once said that you 
must, quote, ``skate to where the puck is going to be, not 
where it has been,'' and in the case of the transition to a 
global low-carbon economy, the puck's direction of travel could 
not be clearer, and there are many countries now racing to 
intercept its trajectory.
    The U.S. should move quickly and deliberatively. Just as 
the U.S. led the global economy in the 20th century, let us use 
this crisis to ensure that we lead the industries of the 21st 
century as well.
    Thank you, and I look forward to any questions you may 
have.
    [The prepared statement of Mr. Morton follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    Mr. Keating. Thank you, Mr. Morton, for your statements and 
your perspective.
    Now I will turn to Dr. Nahm for your opening statement.

  STATEMENT OF DR. JONAS NAHM, ASSISTANT PROFESSOR OF ENERGY, 
 RESOURCES, AND ENVIRONMENT, SCHOOL OF ADVANCED INTERNATIONAL 
               STUDIES, JOHNS HOPKINS UNIVERSITY

    Dr. Nahm. Chairman Keating, Ranking Member Kinzinger, 
members of the committee, thank you so much for this 
opportunity to discuss possibilities for a green recovery, 
particularly as they relate to clean energy industries and U.S. 
competitiveness.
    On a personal note, I became a citizen exactly 2 weeks ago 
today, so I am particularly honored to serve as a witness here 
so soon after taking the oath.
    The economic recession caused by efforts to contain the 
global pandemic has, in the short term, led to a drop of global 
greenhouse gas emissions.
    But as I lay out in more detail in my written statement, 
three factors caution against optimism that the recession will 
yield a green recovery.
    First, these emissions reductions during the current 
recession have been temporary. They are unlikely to have a 
lasting impact on global efforts to reduce greenhouse gas 
emissions by themselves.
    Second, G-20 economies have thus far spent far less on 
green recovery programs than in the aftermath of the 2009 
recession.
    Since March, my colleagues and I at Johns Hopkins 
University have been tracking climate-related spending in 
stimulus packages in G-20 economies. And our findings are 
preliminary and the research is ongoing, but as early results 
suggest, only 7 percent of fiscal stimulus so far targets a 
green recovery.
    Roughly, the same amount of money has been spent supporting 
fossil fuel industries. For comparison in 2009, roughly, 15 
percent of stimulus spending in G-20 economies focused on green 
recovery programs.
    That said, a number of European economies as well as South 
Korea have considerably outspent the United States on measures 
to boost competitiveness in their clean energy industries.
    Governments have used stimulus packages to accelerate 
investments in infrastructure, support clean energy industries, 
fund research and development efforts. Particular focus on 
Europe has been renewable energy, electrification of 
transportation, and investments in research on hydrogen 
technology.
    Green recovery funds have also--green recovery plans have 
also funded incentives including incentives for electric 
vehicles, tax credits for building retrofits, rebates for 
energy efficiency, and so on, and some European governments 
have begun to make financial support for the private sector 
conditional on future emissions reductions and changes to 
business practices.
    Nonetheless, many economies have also compensation fossil 
fuel sectors at the same time, again, offering little 
indication that this is a comprehensive shift toward 
decarbonization.
    A third reason for pessimism about global efforts to 
address the climate crisis relates to China. The pandemic has 
further strained economic and political relationships with 
China, and this is detrimental to efforts to mitigate climate 
change.
    China produces 60 percent of the world's solar panels, is 
the world's largest producer of electric cars. It makes over 
one-third of the global wind turbines. It is also home to over 
two-thirds of the wealth production capacity for lithium ion 
batteries that we need for electric cars and for storage.
    In part because of China's massive investments in 
manufacturing, clean energy technologies have seen rapid cost 
declines over the past decade.
    If green economic recovery is an opportunity to invest in 
domestic clean energy industries and to reduce reliance on 
China in the long term, but in the limited timeframe to 
sufficiently reduce emissions, a green recovery will also need 
to rely on clean energy technologies that are currently 
manufactured in China.
    The United States is uniquely equipped to be a global 
frontier of clean energy innovation. Historically, we have been 
the largest investor in clean energy research and development.
    We continue to lead in many areas critical for fixing the 
climate crisis. This includes next-generation solar 
technologies, advanced battery chemistries, new building 
materials, smart grid technologies, software to manage complex 
energy systems, and so on.
    The United States should use this opportunity to rapidly 
accelerate its research and development investments to defend 
this technological lead.
    In the long term, the current recession also offers an 
opportunity to improve conditions for segments of clean energy 
supply chains that are currently not well supported 
domestically.
    This might mean support for domestic manufacturing, for 
instance, through the creation of financing institutions for 
manufacturing to renewed investments in vocational training and 
technical colleges.
    In the short term, however, we should not lose sight of the 
immediate economic benefits from green recovery and that is 
true even if a share of these technologies is for now 
manufactured abroad.
    Investments in clean energy infrastructure, upgrades to the 
grid, sustainable transit solutions, renewable energy 
installation, building retrofits, they all will create local 
jobs in construction and installation and maintenance and in 
related service industries.
    Green recovery spending would support the creation of such 
jobs in the near term and would improve U.S. competitiveness in 
the long term, and it would also rapidly deploy capital in the 
economy to aid the recovery now.
    Thank you for your time.
    [The prepared statement of Dr. Nahm follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
       
    Mr. Keating. Thank you, Dr. Nahm.
    The chair now recognizes Dr. Rohac for your opening 
statement.

  STATEMENT OF DR. DALIBOR ROHAC, RESIDENT SCHOLAR, AMERICAN 
                      ENTERPRISE INSTITUTE

    Dr. Rohac. Chairman Keating, Ranking Member Kinzinger, 
members of the subcommittee, thank you very much indeed for the 
opportunity to share my views on mostly the geopolitical and 
energy security implications of the European Union's climate 
policies, so my view may be somewhat narrower than the other 
witnesses.
    As with many other EU initiatives, I believe there is a 
mismatch between the significant ambitions of the European 
Green Deal and the more recent decisions on spending, and the 
tools and policies that are available to the EU as a bloc to 
achieve those ambitions.
    And I think it makes it all the more important for Europe 
and for the United States to engage constructively around on 
energy policy with our European partners, not least because 
many of these issues have far-reaching geopolitical 
ramifications.
    In the State of the Union Address to the European 
parliament, Ursula von der Leyen, the president of the European 
Commission, reiterated the EU's commitment to become the first 
climate-neutral continent by 2050 and reduce emissions by 55 
percent relative to the 1990 levels.
    Also, the Commission has vowed to prepare all the 
legislation needed to meet those targets by the summer of next 
year. Most importantly, the financial package that was agreed 
on in the aftermath of the first wave of the COVID pandemic in 
Europe involves one-third of the resources of over $1.8 
trillion euros to be allocated to climate change policies and 
green investment tied to emissions reductions.
    It sounds like a lot, but on an annualized basis, rescue 
package and the EU's multiannual financial framework really 
accounts for less than 2 percent of GDP_thatis_the overall 
budget of the financial package for post-COVID recovery.
    Directing around 30 percent of that spending to climate 
change policies is not exactly news_either it was envisaged 
last year already.
    So there has not been a massive shift in policies, and I 
think what the European Green Deal leaves out is as important 
as what it actually includes.
    So, most importantly, energy policies are not fully within 
the control of the European Union. Member States have their own 
national policies, their own priorities, and the way these are 
coordinated and reconciled with these ambitious carbon 
emissions goals delicate political balancing act.
    One significant gap that I see in the EU is this--has to do 
with the R&D, research and development budget, and the forward-
looking programs that have been produced under pressure from 
member States that require spending that involves as little 
strings attached as possible._So the R&D funds meant to 
facilitate the transition to the carbon-neutral economy have 
been slashed.
    Another open question is the role for nuclear energy for 
the EU. European countries have wildly different views on what 
role nuclear energy should play in the future.
    I think that has geopolitical ramifications as well, given 
the role of Russia and Russia's nuclear monopolies and the 
question of whether the nuclear sectors will be really central 
to the European economies.
    Another question is the EU's reliance on Russian gas. The 
spare capacity built by Russia with its new pipelines enables 
it to cutoff supplies in Ukraine and Belarus, for example, 
without endangering the supplies to European Union, and I think 
that is something that is very much in the U.S. interest_.
    I believe that the United States needs to engage. It is in 
the U.S. interest that the EU make strides to reducing its 
carbon footprint, and also that energy be not used as a tool by 
Russia and China to increase its influence in Europe, and I 
think that involves practical--policies that enable U.S. and EU 
companies to keep their technological edge, and also friendly 
pressure on the European partners not be to compromise EU and 
U.S. strategic interests with projects like Nord Stream.
    On that note, I thank you and I look forward to your 
questions.
    [The prepared statement of Dr. Rohac follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
       
    Mr. Keating. Okay. Thank you very much, Doctor, and thank 
all the witnesses for their testimony. I will now recognize 
members for 5 minutes each, and pursuant to the House rules all 
time yielded is for the purpose of questioning our witnesses.
    Because of the virtual format of this hearing, I will 
recognize members by seniority, alternative between Democrat 
members and Republican members. If you miss your turn, please 
let your staff know. We are going to circle back to you. If you 
seek recognition, you must unmute your microphone and address 
the chair verbally and, obviously, as part of the hearing be on 
the screen.
    I will now start by recognizing myself for questions.
    Seldom do we have testimony that is echoed by all the 
witnesses that the decisions--the economic decisions in this 
instance that we are contemplating are the greatest in human 
history--your words.
    But that is where we are at and that is how important this 
is. That is how much of an opportunity it can be for our 
country and our planet but also how it cannot be.
    Now, many times we are talking about pieces of paper. We 
are talking about policy. It all sounds very wonkish. But my 
question to Mr. Morton, and if anyone else wants to come in 
with an answer, is really to discuss the importance of being 
strategic as a country as having a policy in place, because we 
are not in this by ourselves, and as our witnesses have said, 
this is going to go along--this movement is going to go on with 
us or without us playing a lead role.
    I mean, we deal with global supply chains, global 
production chains, global trade. So that is why the U.S. needs 
a strategic policy in place.
    Can you put into layman's terms or communicate the 
importance of having a concrete policy in place so that we are 
moving together with the private sector, with other countries 
of the world, and have an opportunity to lead and benefit from 
that instead of just muddling through?
    So many of our policies that we have had hearings on in our 
full committee it is the policy of muddling through. We cannot 
afford to do that.
    Mr. Morton.
    Mr. Morton. Sure. Thank you for the--for the question, Mr. 
Chairman.
    You know, I think it is important to recognize that climate 
change 20 years ago was an environmental concern. It became a 
or it has become a human health concern. It has become a moral 
concern.
    It has become a social concern, and it is when it has also 
become an economic concern that we have begun to see in recent 
years the piling on and the understanding now among corporates, 
among financial institutions, among investors, among consumers 
that the--that this train is leaving the station.
    And I think when you have the alignment of policy signals 
as we, clearly, have from around the world, the fact that 189 
countries are parties to the Paris Agreement, which essentially 
says, when you boil it down, that every 5 years those parties 
will come back with increasing levels of ambition around their 
carbon emission reductions targets. That is a clear, clear 
signal of where the world is moving with respect to its--with 
respect to its carbon trajectory.
    And so when I say this is the most predictable and 
consequential economic transformation in history, to my mind 
what that means is we see extremely clearly the direction of 
travel. There is no question where the world is moving and, 
again, the question is just how quickly are we going to get 
there and who will benefit most from it. This is----
    Mr. Keating. Yes, I think--I think we are going to--we 
cannot wait and it has already happened. If people look at 
their own investments, those people that have investments--if 
people look at their 410(k)'s and they dig deep into the 
reports, they are going to find out there is already 
calculations in place about the effect of carbonization in 
terms of the value of their investments and in terms of what 
the private sector is investing in, and you brought that to 
light.
    But this is--do we have to wait until people get so 
familiar that they are looking at their own pensions or 
investments and saying, oh, what is this factor, or calculating 
that. Isn't that going to be commonplace?
    Mr. Morton. I think it will be, and I think financial 
institutions in a very short period of time will begin to 
either voluntarily or have to disclose the carbon content of 
their--of their holdings, and when that happens you will find, 
I think, a seismic shift in how consumers and investors treat 
the carbon intensity of assets because, again, there is two 
sides to this.
    One is the carbon--one is the question of how much exposure 
do you have and what is the downside to your--to our, as an 
economy, our exposure to carbon.
    The other is what is the upside, and this is the important 
moment that we could recognize today. The upside potential in 
transitioning faster and smarter and, again, leading this 
transition as opposed to being left behind.
    The last thing I will say is China, in 2008 and 2009--and 
Dr. Nahm may know more about this than many of us--put in place 
a very, very effective and forward-leaning set of stimulus 
packages in response to the Great Recession.
    They looked forward. They said, we are going to dig out of 
this but we are going to dig out of this in smart ways. They 
invested in solar, wind, battery technology, EVs, and today 
they are the, as Dr. Nahm said, the leaders in each of those 
technologies. Commanding leaders in each of those technologies, 
which today are the underpinning of this new economy.
    So, today, the question is what are we going to do to dig 
out and to reinvest in a way that positions us as the leaders 
10 years hence, and I think that is a question for all of us. 
But I will not be in high carbon-intensive solutions. It will 
be in low carbon-intensive solutions.
    Mr. Keating. Well, I see the issue in terms of our place in 
catching up. I see it in my own district and our own country in 
power where we are behind Europe in much of that.
    I will now turn to Representative Kinzinger for his 
questions.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Dr. Nahm, congratulations. Just in time for one of the 
calmest election seasons we have ever had. So congrats on your 
citizenship.
    Dr. Rohac, I got a series of questions for you. Why is it 
important, in your mind, that Congress takes a lead on ending 
the Nord Stream 2 pipeline?
    I will let you know you are on--yes, there you go. You were 
a little quiet in your intro so if you could make sure----
    Dr. Rohac. I will adjust the mic.
    Mr. Kinzinger. Perfect.
    Dr. Rohac. So Nord Stream 2 is part of a series of projects 
undertaken by the Russian government over the past couple of 
years--over a decade, really--that sought to circumvent the 
traditional natural gas which supplied the Ukraine, mainly, and 
the spare capacity that is created jointly by Turk Stream, by 
Nord Stream, and Nord Stream 2 actually creating that 
redundancy for Russians to be able to cutoff supplies in 
Ukraine, Belarus, without any consequences for their gas 
contracts with the European Union. That gives, obviously, the 
Kremlin leverage over those countries, creates the potential to 
destabilize there and essentially the neighborhood.
    Thankfully, there have been--there has been some pushback 
within the European Union. Oddly, with the third energy package 
there are now competition policy rules that prevent Russians 
from striking the same sort of contractual deals with 
individual countries as they were granted in the past.
    Mr. Kinzinger. Well, let me--let me interrupt you for a 
second. I appreciate that. I just have a few more questions, 
though, on it. But let us say--you know, Germany is considering 
a Nord Stream 2 moratorium. Can that be easily reversed and how 
quickly could that pipeline be finished if they did?
    Dr. Rohac. Well, the pipeline is almost at a completion 
stage. It is very close to completion. The problem with just a 
moratorium is that, you know, it can be reversed. I do not know 
for how--you know, for how long it creates a sort of window of 
opportunity if you just go back to the pipeline.
    And the economics of the pipeline never really made sense 
to be--again, with especially these low prices that are. But 
having, you know, a--having a moratorium in place creates the 
opening to, essentially, go back to the pipeline in the future, 
which is--which is why it is important, I think, for the United 
States to put some pressure, albeit in friendly terms, on our 
European partners, on Germany, by offering some sort of fulcrum 
for Germany.
    I think there is a debate within Germany about Nord Stream 
2 and about LNG, the discussion of possible LNG terminals on 
the north coast of Germany.
    So I think there needs to be this two-pronged approach 
where the United States States clearly that this is not in the 
U.S. interest and--but still in a way that is not seen as 
overly pushy or sort of, you know, put off by that.
    I know that the EU-German relationships have not been in a 
great place. But, I mean, Nord Stream 2 is something that is 
very much not in the German interest nor it is in the European 
interest.
    Mr. Kinzinger. Thank you.
    Let me--let me ask you, China's commitments under the Paris 
Agreement have been recognized as insufficient in slowing down 
the rise in global temperatures.
    Why was China, an economic superpower, permitted to make 
such insufficient commitments in 2015 compared to those by the 
U.S., EU, and other Western countries?
    Dr. Rohac. Well, the history is important because there was 
an earlier climate summit in 2009 which failed to break a 
binding resolution.
    So 2015 was, in a way, a call to reality which allowed 
countries to decarbonize at their own pace, and actually pretty 
much on what was said earlier on China is, basically, true and 
important.
    China has made progress in, you know, decarbonizing its own 
economy at some level on solar and then other renewable 
domains. At the same time, it has been funding the construction 
of coal plants as part of the Belt and Road Initiative, and I 
think, you know, and it continues to in the aggregate increase 
emissions. It is very much hoped that Chinese emissions will 
peak in this decade. But that is far from a global conclusion.
    So I think there is a big question mark over the 
seriousness and movement to decarbonization.
    Mr. Kinzinger. Thank you.
    I only have 20 seconds left. So I will just kind of put 
these for the record. But I do have a question I will submit to 
you, Dr. Rohac, about the Three Seas Initiative and the new LNG 
terminal as well as Chairman Keating and I, we led the European 
Energy Security and Diversification Act and I have some 
questions about that.
    But since there is other people that want to ask questions, 
I want to thank you and the witnesses and the chairman for 
holding this.
    I yield back.
    Dr. Rohac. Thank you.
    Mr. Keating. I would like to thank the ranking member.
    I will now recognize the vice chair of the committee, 
Representative Spanberger.
    Ms. Spanberger. Thank you, Chairman Keating. Thank you to 
the witnesses for being here.
    Dr. Nahm, congratulations on your citizenship. I appreciate 
the framing of today's conversation, particularly on such an 
important topic.
    As we all know, the COVID-19 pandemic has caused 
significant heartbreak and loss across our country and the 
world, and loss of life, lasting health conditions, economic 
hardship, isolation, and so many other elements.
    And as we continue to talk about what it will take to grow 
out of this pandemic, I really appreciate the framing of 
today's conversations.
    So, Dr. Nahm, I would like to begin with you. In your view, 
the types of investments that countries can make to bounce back 
more quickly from this investment, and following up on 
Congressman Kinzinger's question, can you talk a little bit 
about how efforts to be more resilient, moving forward, can 
actually also be an element of how we compete internationally, 
and just a little bit more significantly there, you know, the 
economic recovery spending that we are going to make and have 
made as we invest in sectors that present economic opportunity, 
I am wondering where is that, as you view it, that real benefit 
in climate and national security benefits in terms of our 
international competition?
    Dr. Nahm. Thank you for that question.
    I think--I think there are sort of two aspects to it, 
right. What we are seeing internationally, even though 
commitments are falling short of where they should be to fix 
this problem, is a very sort of strategic effort in Asia and 
Europe to, basically, fill out--use this opportunity to fill 
out parts of the domestic sort of clean energy infrastructure 
and supply chain that are currently not very well supported. 
And so that is technologies that are not very well supported or 
in early stages like hydrogen.
    That is sort of a way of reducing reliance on China, for 
instance, in Europe with the battery consortium that is trying 
to sort of kick start a European battery industry. And so there 
is--so that is sort of one side of it, right, so using this 
time and the money that is being spent to complete and be more 
competitive in industries that countries are agreeing on being 
important, going forward.
    I think that the--sort of a separate debate is what support 
for clean energy markets domestically will do in terms of 
employment, and I think in that debate in the past we have 
focused a lot on the reliance on China and sort of China's 
dominance in manufacturing and our wish to bring manufacturing 
back, and that is a valid concern.
    I think where we have been missing emphasis in the 
conversation in this country has been how many jobs are 
actually not in manufacturing in these industries, and so those 
are the kinds of blue-collar jobs that we long have been 
talking about are being lost--the sort local construction jobs.
    You know, if you have wind and solar installation service, 
a huge maintenance and installation employment opportunity. 
There are related service industries in these sectors. All of 
these infrastructure projects and building retrofits have 
construction jobs, and so there is this sort of international 
competitiveness aspect.
    But I think there is also a debate we should have about 
what kinds of jobs we will get regardless of where we are 
currently in terms of, you know, manufacturing competitiveness 
in these sectors.
    And so I think that is--that is both important and 
probably, you know, would require sort of a two-pronged 
approach of creating markets and filling out--filling out our 
competitiveness.
    I think, historically, we have been incredibly good at 
research and development. We also have very good institutions 
through universities to spin off new technologies and to 
startup companies. Where we have been less competitive it is 
financing these startup companies to the point where they can 
scale these technologies and then actually manufacture and 
deploy them in this country. And so that gap, I think, we have 
not fixed for the most part.
    Ms. Spanberger. Thank you so much, Dr. Nahm, and I am 
looking for my time keeping bubble. So I do not see it, Mr. 
Chairman. You might have to interrupt me as I approach.
    Mr. Keating. Fifty-two seconds, Representative.
    Ms. Spanberger. Okay. So I would just like to comment then 
rather than go into additional conversation.
    Dr. Nahm, thank you very much for bringing the conversation 
not just about the manufacturing but also the jobs that would 
come to the United States if we were to really, really focus on 
building out greater resiliency, everything from making major 
investments in renewable energy, the power grids that go along 
with that, and the maintenance of such efforts.
    I want to thank all of the witnesses, and I do not want to 
run over time. I am grateful for you all being there--being 
here today and thank you for what you are bringing to this 
conversation, and thank you for all of your work and research.
    I yield back, Mr. Chairman.
    Mr. Keating. Thank you, Representative.
    The chair now recognizes Representative Burchett of 
Tennessee.
    [No response.]
    Mr. Keating. Are you with us still, Representative 
Burchett?
    [No response.]
    Mr. Keating. Then we will come back to you in order.
    The chair recognizes Representative Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you to 
all the witnesses for this excellent testimony.
    I would like to just sort of build on Congresswoman 
Spanberger's question and ask you, Mr. Norton--Morton, I am 
sorry. You know, I think we think of these issues as we are 
thinking about climate--the climate crisis in kind of three 
specific ways as it relates to COVID-19, our economic recovery 
and our competitiveness, our national security, and our 
environmental stewardship.
    And I think very often people think of those things as 
competing and we have to make tradeoffs, and I wonder if you 
would speak to the opportunity that our being thoughtful in our 
response to COVID presents in terms of aligning all three of 
those priorities and responsibilities rather than kind of being 
a tradeoff.
    Mr. Morton. That is a--that is a terrific question. Thank 
you, Congressman Cicilline, and it is a big question.
    You know, when I covered these issues at the National 
Security Council under President Obama, we spent a lot of time 
thinking about--thinking about the interplay between those, and 
I think it is no--it is no secret that there is a strong 
national security imperative in securing our economic future 
and securing our--and in mitigating the greatest risks of 
climate change.
    And that is across everything from force preparedness and 
troop readiness and coastal--resilience of coastal military 
installation overseas--you know, protecting overseas supply 
lines in increasingly--in increasingly difficult climate-
related areas.
    I mean, the military has been a huge proponent of 
developing distributed generation renewable solutions to power 
there and supply power to their--to their forward posts.
    So there is no question if there is a strong national 
security component to addressing climate change and there is an 
equally strong argument to be--to be made for addressing 
climate change because of the human displacement factor that is 
coming--that we see coming already related to environmental 
refugees, and we will see many, many more of these in the years 
to come and that will have an impact on our national security 
undeniable because it will put pressure on our borders, on the 
borders of our--of our allies, as it already has and we have 
seen that.
    And so just at a high level, I think there is no--there is 
not really a debate, again, around the question that climate 
change will have bearing and is having bearing already on 
national security at the margin, that those pressures will only 
increase.
    I think the advantage we have now, because we do have 
this--we called it once in a generation, once in a--you know, 
whether it is once in a generation, once in a decade, it is 
once in a long time, period, to deploy significant amounts of 
public capital in a way that can both address environmental 
considerations, address national security considerations and 
help us rebuild, and in a way that is consistent with the clear 
direction of global policy travel and technology innovation.
    And so I think this would be a tremendous missed 
opportunity, and the numbers that Dr. Nahm just shared, you 
know, only 7 percent of our stimulus funds collectively going 
to kind of climate-or green-related rebuilding.
    That is a real concern. If we are using this moment to 
reinvest in the status quo, which we know is unsustainable from 
a national perspective, from an environmental perspective, why 
are we doing that? That is not an efficient and effective use 
of public resources. So look forward. That is----
    Mr. Cicilline. Thank you very much. Thank you so much.
    Dr. Nahm, I want to get my last question to you. Offshore 
wind is a particularly exciting opportunity for my State. We 
have the first offshore wind farm in America and, as you know, 
the Europeans have been doing this since they were first 
installed in Denmark in 1991.
    And I am just wondering whether or not you can speak to 
kind of the employment opportunities, the economic gains that 
offshore wind can provide, and also how places in Europe have 
resolved these kind of challenges of mixed or share use with 
other industries, particularly with fishing.
    And, finally, whether or not there are countries, more 
broadly, we should be looking at in terms of the COVID-19 
response that have done really smart, you know, whether it is 
South Korea or members of the European Union that the U.S. 
should be looking to, kind of as some examples.
    So those are two separate questions but I wanted to get 
them in because I know the chairman will give you as much time 
as you need to answer.
    Mr. Keating. Correct.
    Dr. Nahm. Thank you. I was just going to ask a question 
about timing.
    So in terms of offshore wind and employment, I think--you 
know, I think Congressman Keating also has some offshore wind 
in his district. There is really----
    Mr. Cicilline. They are--they are beginning to think about 
doing it. The first wind farm is, of course, off the shore of 
Rhode Island. But go ahead.
    [Laughter.]
    Dr. Nahm. I think we need to think about this as a whole 
ecosystem of jobs that is created as a result of this, right. 
And so this goes down to the local metal welding companies that 
are welding together the pylons on which these turbines are 
being constructed.
    A lot of the components are being shipped from all over the 
world. But the construction of these and the sort of assembly 
of these large turbines actually has to have a locally--you 
need to have a port, a maintenance facility for these--for 
these turbines, and you have the people with the food trucks 
that are selling lunch to the port workers that are shipping 
the repaired equipment to the turbines.
    And so I think we really need to think about the whole 
chain of employment opportunities that exist there. When I was 
doing my Ph.D. at MIT there were a lot of debates about the 
Cape Wind project at the time, and I know that Rhode Island, 
you know, forged ahead.
    But we interviewed a lot of local companies and all sorts 
of different businesses that were banking on this project 
happening and hoping for economic opportunity, going all the 
way down to steel tank companies that were, you know, doing 
propane tanks but had now acquired the sort of capability of 
welding for these things.
    And so this can have a large impact on many different kinds 
of businesses. And I do not want to go over too much, but maybe 
one more point. If you think about the same amount of power 
generated, say, in a coal power plant there is actually not a 
lot of employment in that particular plant, right.
    There might be employment in my end and so on, earlier on. 
But on average, renewable energy installations have no fuel 
costs but instead employ a lot of labor and maintenance and the 
sort of infrastructure that happens around it.
    Mr. Cicilline. Thank you so much.
    I yield back, Mr. Chairman.
    Mr. Keating. Thank you, Representative.
    I am going to see if Representative Burchett was able to 
get back on.
    Mr. Burchett. I am here.
    Mr. Keating. Oh, great. The chair recognizes Representative 
Burchett from Tennessee.
    Mr. Burchett. I know you could not tell if it was me or 
not, Mr. Chairman, because, as I have Stated, this unnatural 
light does not capture my beauty that is so misplaced in these 
videos.
    Mr. Keating. Well, we will not ask the witnesses to comment 
on that.
    [Laughter.]
    Mr. Burchett. Thank you, Mr. Chairman.
    Hey, I would like to ask Dr. Rohac a question, if it would 
be all right. Do you think it is a good idea to expand the 
Development Finance Corporation's mandate to allow for the 
funding of nuclear projects?
    Dr. Rohac. I think it is. So when you look in Eastern 
Europe, there are a number of countries that are either 
considering or in the process of actually expanding their 
nuclear operations and by and large Russian companies, 
especially Rosatom, have the upper hand in bidding for those 
contracts.
    In Hungary, the Paks II expansion has been given to Rosatom 
without going through a competitive vendor. Now Poland is 
considering opening up to six new nuclear reactors.
    So for Westinghouse and these companies, more broadly, this 
has been a challenge. The question is so there is the Eximbank, 
which I think can play an important role.
    The DFC--the question is, I believe, how far can its 
mandate go because so many of these countries are--they are 
developing countries. So I think within the DFC mandate they 
would be only Bulgaria and Romania that would count as possible 
candidates for--eligible for funding among the EU countries.
    Romania, by the way, is--has now scrapped an agreement with 
the Chinese and is looking for new bidders for the expansion of 
its reactor in Cernavoda.
    So I think it's important to be--that the U.S. is in this 
game. I think it is equally important that the U.S. is at the 
gate for a supply of nuclear fuel in response. So Westinghouse 
has a plant in Sweden, which has created a consortium with 
various European institutions, tried to provide safe fuel 
supply for the Soviet-style reactors that were--replaced coal.
    But also I think it is important that this be also given 
attention by U.S. policymakers because I think it is very much 
in our interest that especially smaller European countries 
are--do not become dependent on Russian energy, whether it 
takes the form of natural gas or, indeed, nuclear power.
    Mr. Burchett. Did I hear you say correctly early on that 
the Russians have the advantage in the bidding process? You cut 
out a little bit and I wasn't sure if that is what you said or 
not.
    Dr. Rohac. Yes. Oddly, that might have to do with sort of, 
you know, historical legacies and the presence of Rosatom in 
this--in these economies, but also on the cost basis it has 
been--you know, there are these sort of offers. Some of them by 
Rosatom have tended to be--than the U.S. or the Western 
solutions.
    [Pause.]
    Mr. Keating. I think we have a technical difficulty there. 
Let us just pause for a minute, see if that comes back. And if 
you--if you can, Representative Burchett, if you have questions 
of another witness, perhaps you could ask those now.
    Mr. Burchett. That is okay, Mr. Chairman. I am good. I will 
yield back the remainder of my time. Thank you for your 
patience, sir.
    Mr. Keating. Well, thank you and thank you for your 
questions.
    Mr. Burchett. Yes, sir.
    Mr. Keating. We are also having technical difficulty. See 
if Mr. Costa is back. If not, we will ask Representative 
Gonzalez if he has any questions.
    [No response.]
    Mr. Burchett. Mr. Chairman, it is Tim Burchett again. It 
might help--when we get off it says there is a bandwidth 
problem. If we would--maybe if we--after we finish our 
questions if we get off that might help. I am not sure.
    Mr. Keating. Well, thank you. If people are off, perhaps 
you might want to get off because of a bandwidth issue. Thank 
you. Representative Burchett, you are far more advanced than I 
am at even spotting these things. See if that helps.
    Again, I think we have Representative Costa, Gonzalez, and 
then Sherman. If--Representative Sherman will ask unanimous 
consent to--that he join us.
    Representative Sherman, how are you doing technologically?
    Mr. Sherman. Doing just fine.
    Mr. Keating. The chair recognizes Representative Sherman 
for questions.
    Mr. Sherman. Oh. I just want to thank you for holding the 
hearing. I thought my time to ask questions would be at the 
end. Are we at the end?
    Mr. Keating. Well, you're technologically at the forefront 
in terms of having access.
    Mr. Sherman. Why do not I pass to the end? I want to hear 
what other people have to say.
    Mr. Keating. Okay. Thank you. I will--thank you. I will 
just recognize myself for a couple of things I did not get to 
ask I thought might come up in the questionings. They might 
have. Especially Dean Kyte and----
    [Audio interference.]
    Mr. Keating. Representative Costa, are you on or----
    No?
    [Audio interference.]
    Mr. Keating. Let us move on. Listen, let us everyone pause 
for a second.
    [Pause.]
    Mr. Keating. All right. I am going to continue and ask a 
question if I----
    Mr. Gonzalez. I am trying to be on. Can you hear me?
    Mr. Keating. Is this Representative Costa?
    [No response.]
    Mr. Keating. Representative Gonzalez.
    Mr. Gonzalez. Here, Chairman.
    Mr. Keating. Ah, Representative Gonzalez, there you are. 
You are now recognized for questions.
    Mr. Gonzalez. Thank you. Thank you, Mr. Chairman.
    My question is for Mr. Morton.
    Mr. Morton, based on your work on the National Security 
Council, how would you shift away from fossil fuels that affect 
our national security and our environment, and are there 
particular energy sources that would allow us to maintain 
energy independence during a transition to renewables?
    Mr. Morton. Thank you, Congressman Gonzalez, for your 
question. I mean, I think--I think the first thing to recognize 
is that we have come a long way in the last--in the last 10 
years, and if you look at the trajectory and pace of travel 
that we are already on, it is--it is significant and it is more 
than most people recognize.
    So I am not saying we should rest on our laurels but it is 
worth realizing that in the past 2 years, if you look at the 
U.S. the percentage of new annual power generation installed 
capacity each year has been about 75 percent for renewable 
energy over fossil fuel, and that is a market-driven--that is a 
market-driven movement, right?
    Mr. Gonzalez. Right.
    Mr. Morton. We are already installing three-quarters--
almost three-quarters of our annual energy installation 
capacity each year as renewable energy, largely in the form of 
solar and wind.
    So that is happening, and it is producing good jobs and it 
is producing jobs that cannot be outsourced on the service 
side. The fastest growing jobs segments in the U.S. in the last 
2 years, according to the Bureau of Labor Statistics, were 
solar photovoltaic installers and wind turbine technicians.
    So that is happening, but it is not happening at the speed 
that it could and it is not happening at the speed, I think, 
that the--that the market demands and that--and that economic 
support.
    And so there is a lot further we can go there.
    In terms of next-generation, looking forward, you know, I 
think energy storage in particular, how we actually ensure that 
there is a smoothing of solar and wind supply, is--so energy 
storage, battery storage will be a huge area of competition and 
long-term competitive advantage.
    The hydrogen economy is, clearly, an area where many, many 
economies are pointing and where we have to have, to Chairman 
Keating's point of view, an opinion. We need to have a 
perspective and a set of policies that I think enable that 
industry because it will be huge and it will be big and it will 
be global.
    So I would think that a continued rapid deployment of solar 
and wind, leaning in on geothermal, which is a tremendous 
resource for this country, and a focus on energy storage and 
the hydrogen economy would be areas that I would prioritize on 
the energy generation and energy storage fronts.
    Mr. Gonzalez. So are you saying that would be enough to 
maintain energy independence if we made those changes that you 
just mentioned?
    Mr. Morton. I think--I think energy independence is a 
tricky word because it means--I think it means different things 
to different people, right.
    You know, the global energy market is a--is just that. It 
is global. Sometimes we are net producers of energy.
    Mr. Gonzalez. That is what I mean. That is exactly what I 
mean. Are we net producers. Would we be net producers during 
that period of transition?
    Mr. Morton. I think we are getting close to a point where 
we--where we can be and that--you know, whether or not that is 
our Stated goal or whether or not that is an outcome of a--of a 
much more intentional set of green growth-related policies I do 
not have a strong opinion on. But I----
    Mr. Gonzalez. Thank you.
    I have one more question. Several months ago, the Select 
Committee on Climate Crisis related a report that contained 
policy recommendations for addressing the climate crisis and 
ensuring that our transition to a greener energy mix does not 
leave workers in communities of energy-producing States like 
Texas, where I represent, behind.
    Dr. Nahm, what steps are other countries taking in their 
green recovery package to assure that those employed in and 
relying on traditional energy such as Texas sources are 
equipped to make this transition and what steps are other 
countries taking to promote new jobs in clean energy that are 
distributed fairly, paid fair wages, and are integrated with 
trade unions?
    Dr. Nahm. Thank you for that question.
    If you look at the European recovery packages, both in 
Germany but also at the European Union level, there are 
measures for what they call a just transition fund that 
involves both compensation but also investment in training 
facilities and retraining facilities to help people transition 
to other sources of jobs.
    And so, you know, that is sort of one approach that is 
being taken, and a State like Texas, which has one of the 
largest wind industries in this country, there have been plenty 
of new opportunities that also have been created, you know, 
over the past two decades.
    And so the question is are these in exactly the same 
locations as the old jobs and can we somehow match the 
technical capabilities or train people in the way or give them 
opportunities for training so that they can take advantage of 
these new opportunities.
    And I think--I am sort of heartened to see that the 
European recovery packages are taking that on and trying to 
facilitate that directly.
    Mr. Gonzalez. You know, my concern on wind--for example, we 
have a wind farm in the adjoining district--is that once they 
are built they do not produce that many jobs in the long term.
    In fact, that wind farm that we have next to us I think 
employs 15 people, and when you compare that to traditional 
energy employment in the region, I just do not see how it could 
keep up.
    I mean, I am all for it. Don't get me wrong. But I am 
just--that is just a concern for people that live in Texas.
    Thank you very much. I yield back.
    Mr. Keating. Thank you, Representative.
    The chair recognizes Representative Sherman.
    Mr. Sherman. Thank you.
    We are all anxious to resume life, and so the first bit is 
how can we just go back to exactly what we were doing before 
COVID.
    But, in fact, it makes a lot of sense for a country, and I 
see you are doing this, to look at how are we going to rebuild 
better, and what area is electric vehicles where you have, 
like, a triple chicken and egg problem.
    We need demand for electric vehicles so that they will make 
vehicles with better range. You have range anxiety that 
prevents people from buying the vehicles. With fewer vehicles 
you have fewer recharging stations, and if you do not have the 
recharging stations that cuts your range.
    So and it takes geniuses to invent better batteries, and 
there are some geniuses working on that. But a country with a 
good government could arrange a circumstance that when you 
drive to where you are going to go, you can recharge so that 
when you get back in your car you have topped up your electric 
tank.
    What is Europe doing to make sure that where you park your 
car you recharge your car?
    And I realize this is a question right out of the blue, and 
if our witnesses do not know I will just submit that as a 
question for the record.
    Mr. Keating. Any takers on that question?
    Ms. Kyte. This is--this is Rachel Kyte.
    It is a really good question and it harks back to an 
earlier question about what is the role that the government 
needs to play.
    And so what I think is clearer in Europe is both a 
combination of car companies themselves making very explicit 
statements about when they will stop producing the internal 
combustion engine mixed with a policy dialog around what is the 
infrastructure that should be provided in order to ensure that 
you can have multi modal electrical clean energy 
transportation.
    So the conversation is in different countries, including 
the Netherlands, Germany, Denmark, even now beginning in the 
U.K., a conversation around how do you decarbonize cars, move 
people onto healthier mobility, so that is electric bikes and 
public transportation.
    And so you are actually seeing this coming from the 
European Union level in terms of the package. You are talking 
about national conversations.
    But also, cities are playing an important role in the 
European debate as well and you have a number of cities coming 
forward with very, very aggressive targets around how to move 
goods and people around the city cleanly and healthily.
    And then the car companies, again, take their cue from 
that. So it--sorry.
    Mr. Sherman. Thank you.
    I would like all witnesses to tell us what European 
countries are doing to require that major parking lots and 
structures have recharging stations, that they are consistent 
with the kind of technology that the cars have, are adaptable 
to it, and that so many apartment buildings also, in effect, 
have parking lots or structures for their--for their tenants so 
that they--whether they are required to have recharging.
    Because I, personally, I go to my district office, there is 
no place to recharge the car, and that does not affect me now 
because I have got a 10-year-old car. But it is going to be 
very hard for me to buy an electric car or for any of the 
hundreds of people that work in that building to do so if there 
is no recharging station. And that is more than you wanted to 
know about my district office, and I yield back.
    Mr. Keating. Well, thank you. Thank you, Representative.
    I do not think Representative Costa, whose district is 
really plagued by wildfires, is able to reconnect. But I will--
there is a question that has been--it should be asked that I am 
glad I have the opportunity to ask in this round, and Dean Kyte 
and Dr. Nahm, perhaps you would be able to address this but 
anyone can.
    Those are the--that is the unintended consequences of 
moving ahead and, again, they need to really strategize and 
make policy on this. But what concerns do you have about 
marginalized and systematically, you know, disadvantaged 
communities, whether they are here in the U.S. or abroad, being 
left out, and also making sure that when we are doing this it 
is along the lines of Representative Gonzalez's concern about 
jobs, to make sure there is a fair distribution and fair wages, 
integrated with unions and that kind of support.
    So it is one of--the question is one of unintended, I 
think, exclusion and planned inclusion in terms of those other 
factors. Does anyone want to take a stab at that?
    Ms. Kyte. Well, I will take a first go and then I am sure 
colleagues will have more to say.
    So, first of all, this is all the more reason to plan for 
the transition. If we can plan for the transition then we can 
take care of communities who are, you know, heavily invested in 
and have historic ties to parts of the carbon-intensive 
economy, which are not going to be competitive in the future 
and are not competitive now.
    And that does require dialog with those communities and it 
does require setting aside funds for retraining, for 
reskilling, for imagining what new industries can take place.
    And there are examples of that. The dialog in Alberta 
between unions, global companies, local companies, provincial 
government, and government. There is also plans for just 
transition dialogs taking place in cities and counties around 
the United Kingdom and across Europe but also in South Korea 
and elsewhere.
    So this is a very important part of it. It can be planned 
for. We have had transitions before and we have been able to 
help communities through that, which brings me back to, for 
example, in the northeast where I live now, and wind.
    So here, you know, the detailed conversation around making 
sure that we have got the training and the education for the 
skills, the blue-collar and the white-collar jobs.
    You know, the expansion of the job--the amount of jobs we 
will lose from saying goodbye to the tail end of the carbon 
economy, is very small in comparison to the number of good jobs 
that can be recreated.
    Think of all of the built environment that is going to have 
to be refurbished to be made resilient to climate change. Think 
of all of the electricians, the carpenters, the new materials, 
the manufacturers of those new materials, et cetera, et cetera, 
and then think about the future where we have green hydrogen 
because we have so much offshore wind that we have surplus 
energy.
    And then New Bedford is not just, you know, a place where 
we are putting turbines out into the ocean. It is also a green 
energy hub that can serve the northeast.
    So these are the kinds of exciting things, I think, that 
when you start planning for it and working to it, you can take 
those communities behind.
    For developing countries who are heavily in debt and need 
to work their way through this crisis, there are also 
opportunities to both solve their indebtedness and help them in 
the clean recovery, and there is some interesting work going on 
now around thinking through debt for climate and things like 
this.
    But there are transitional innovations that can also help 
inclusion at the global scale. Thank you.
    Mr. Keating. Thank you.
    I think Representative Meeks has joined us. I do not know 
if, Representative Meeks, if you have any questions.
    Mr. Meeks. Yes, I do. Thank you very much, Mr. Chairman.
    Mr. Keating. Great. Representative Meeks?
    Mr. Meeks. Thank you for--thank you for all the witnesses 
for their testimony here today.
    Mr. Keating. If you could move closer to your microphone. I 
think we are having a little trouble here.
    Mr. Meeks. Can you hear me now?
    Mr. Keating. A little better. Thank you.
    Mr. Meeks. Okay. Thank you.
    I just want to thank all the witnesses for their testimony 
and thank you, Mr. Chairman, for this important topic.
    I would like to ask Ms. Kyte, that when talking about 
climate diplomacy, international coordination as essential, 
especially with the large growing economies such as China and 
India, they are committing to carbon neutral futures as we are 
still committed to coal.
    What will it take for the world to come together to 
energize our collective policies and can saving our planet be 
done without international political cooperation?
    Mr. Keating. And you need to unmute.
    I think that----
    Ms. Kyte. One point--sorry. Excuse me. Just one point.
    International cooperation is needed now more than ever 
because it is the global energy economies. It is a global food 
value chain. We are--we are only going to solve this problem 
together.
    And, you know, yesterday the Chinese government made an 
announcement that it aims to be zero-net carbon as an economy 
by 2060 and that it hopes to reach peak emissions by 2030.
    This is a substantial ramping up of their ambition, and so 
now we have two of the three biggest emitters, historically, 
ratcheting up their ambition, which means that there is a 
cooperation.
    There is a race to the top, and I think the danger is that 
for individual Americans, individual American families, 
communities, those of us who live here, we want to be in that 
race to the top and the--despite other geopolitical tensions, 
such as a cooling of the atmosphere in some of the discussions 
between these major power blocs. The possibility of a race to 
the top would benefit everybody, race to the top being a 
cleaner environment.
    And so the EU have now said that they have this new 
ambition. China came out, I think surprising a lot of people 
with their new ambition statements yesterday, and I think that 
it is difficult to imagine how we can optimize for the new jobs 
for the stability that we need if we are not part of that race 
to the top.
    Mr. Meeks. Thank you very much. That is exactly, you know, 
my thoughts as well as much more with the data that used to be 
and, you know, one thing that we share is this planet and so, 
therefore, there should be a race to the top by all of us, 
particularly the largest countries in the world and have--that 
uses the most, you know, carbon.
    But so let me ask Mr. Morton. You know, I sit on both--I 
think there is an interconnection in the Foreign Affairs 
Committee and the Financial Services Committee, and to see 
money move, guided by an invisible hand to where profits are 
and it is often driven by short-term thinking in quarters or 
even maybe years--you know, this very short term.
    And in reading your statement you used a Wayne Gretzky 
metaphor about going to where the puck is headed when 
describing investments. How can finance better prepare us for 
what is ahead so that it can be going to where the puck is 
headed?
    Mr. Morton. Thank you, Congressman Meeks. It is a great 
question, and I think before you joined I--you know, I 
highlighted the recent statements from BlackRock about climate 
being central to their investment strategy, going forward.
    The CFDC announcement from 2 weeks ago about how climate 
risk is a risk to the U.S. economy--a fundamental risk to the 
U.S. economy unless it is--unless it is better addressed. Two 
days ago, JPMorgan came out with its announcement about being, 
essentially, financing only having a net zero portfolio 
investments within a relatively short period of time.
    We are beginning to see the pieces fall in place for what 
will become a rush to the exit, and this is the--this is the 
concern--the rush to the exit out of fossil fuels, and this is 
the concern that many in the financial community have had for a 
long time about this issue of stranded assets.
    When people realize that carbon is, in fact, this liability 
and we begin to treat it as what it rightly is, which is a--
which is today an unpriced pollutant which will be priced in 
the future and is increasingly being priced, financial markets 
will respond not in a trickle but in a flood.
    And it is really important that our financial institutions 
and we, as investors, and as shareholders and as 401(k) holders 
begin to hold our financial institutions accountable for the 
carbon in their portfolio because it is going--the moment of 
reckoning is going to come soon.
    And it is, therefore, I think imperative upon policymakers 
to send the signals to the financial institutions that this 
moment is coming and that we need to harden our financial 
institutions against the kind of and carbon risk in their 
portfolios.
    I do not think we have got 10 years before this happens. I 
think it is two or 3 years before the financial institutions 
really, really, really begin to price carbon in their 
portfolios, and then we are going to see a flood of investment 
capital away from climate--a carbon-intensive economies toward 
greener sectors and alternatives.
    Mr. Meeks. Thank you very much. I yield back.
    Mr. Keating. Thank you, Representative Meeks, and I would 
just like to have a couple closing observations, since members 
have asked their questions.
    And I want to thank the members, by the way, on a very busy 
morning with much going on. We had nine members participating, 
which is quite few, and I think is a testament to the 
importance of this issue.
    It is clear. It is clear from everything that we heard this 
morning. It is clear from the reality that we live in that the 
idea of decarbonization is one that is just not an 
environmental issue anymore. If you just view it as such, you 
are living in the past.
    It is much more than that, and it is--the purpose of this 
hearing and the purpose of this committee moving forward in a 
global sense to understand this, that we have to stop living in 
the past and having debates on how to treat it as an 
environmental issue, and realize where we are now and where we 
are going to increasingly go in the future.
    Now, the private sector is way ahead of this, and we have 
seen in the past--we have seen in the past instances where 
government has been a partner in the private sector just giving 
opportunities for incentives, and the private sector has just 
moved in to be a partner.
    There is opportunities to increase that dramatically and 
move away from this concept that we are just regulating out 
issues. And also, we have to look at the fact that other 
countries are moving ahead of us and we are being left in a 
weak position. You know, just as the boat goes through we are 
left in the--behind in the currents, and they are ahead leading 
the way.
    Now, there is a few things we can also be sure of. After 
the conclusion of this COVID-19 crisis and as we move from 
dealing with the immediate concerns, we are going to move 
unquestionably into a recovery package to bring our economy 
back and it is clear to everyone, I believe, that this would be 
the largest recovery package in the history of our country.
    Now, we can incorporate forward thinking in that recovery 
package and move ahead and do things that are important, not 
just for our own futures but for generations to come to 
maximize those efforts.
    Or we can move to focus that recovery package on outdated 
industries, industries that do not have a future but industries 
that might be politically connected and might be clamouring for 
resources and funds and advantages government is providing, 
even though that is not going to lead us to the future.
    So we know where we are going to end up. We are going to 
end up in a place where we have to address carbonization and it 
will be addressed whether we act or not, or we can continue to 
muddle through, being followers, losing jobs, losing revenue, 
and also condemning the people in this country to not 
prospering in terms of the economic or healthcare security.
    So it is clear where we have to go. But government will 
have a role. It has to, if we are going to maximize things. And 
it is clear from the testimony of the witnesses here that that 
must be the case.
    So I really thank you for your testimony. The witnesses 
that could not get on will have 5 days to submit written 
statements and extraneous material for the record, subject to 
the rules.
    We have not heard the last of this and it is important that 
we are talking about it at this time of necessity and this time 
of opportunity, and it is just important that we do not follow 
the path.
    As committee members know in this committee that every 
hearing ends up saying, as a concluding note, well, we need a 
policy to go forward. We hear that in the Foreign Affairs 
Committee time and time and time again--what is needed is a 
policy.
    Well, that is needed here, and it is not just empty words 
on a piece of paper. It is a strategic plan, moving forward, 
working with the private sector, working with our global 
allies.
    And we can be bystanders or we can be leaders. I think we 
have no choice to be the latter.
    So thank you so much to our witnesses for being here. I 
thank the committee members. This is one of the most important 
issues we are dealing with and will be dealing with in the 
years to come, and we have not heard the last from all of you. 
Thank you for your participation.
    With that, this hearing is closed.
    [Whereupon, at 11:38 a.m., the committee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                 
                                

                                 <all>
</pre></body></html>
